       DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                           Office of Audit Services
                                                                           Region I
                                                                           John F. Kennedy Federal Building
                                                                           Room 2425
                                                                           Boston, MA 02203
                                                                           (617) 565-2684



December 23, 2009

Report Number: A-01-09-00609

Brenda M. Harvey
Commissioner
Department of Health and Human Services
221 State Street
State House Station 11
Augusta, Maine 04333

Dear Commissioner Harvey:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Maine’s Compliance With the ‘Reimbursement
of State Costs for Provision of Part D Drugs’ Medicare Demonstration Project Requirements.”
We will forward a copy of this report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-01-09-00609 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Brenda M. Harvey


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




REVIEW OF MAINE’S COMPLIANCE WITH
THE “REIMBURSEMENT OF STATE COSTS
  FOR PROVISION OF PART D DRUGS”
 MEDICARE DEMONSTRATION PROJECT
          REQUIREMENTS




                         Daniel R. Levinson
                          Inspector General

                           December 2009
                           A-01-09-00609
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA)
amended Title XVIII of the Social Security Act (the Act) by establishing Medicare Part D.
Medicare Part D provides optional prescription drug coverage for individuals who are entitled to
Medicare Part A or enrolled in Medicare Part B. The Centers for Medicare & Medicaid Services
(CMS), which administers Medicare, contracts with private prescription drug plans and Medicare
Advantage plans to offer prescription drug benefits to eligible individuals.

Full-benefit dually eligible beneficiaries are eligible for benefits under both Medicare and
Medicaid. Pursuant to Title I, section 103(c), of the MMA and upon the implementation of
Medicare Part D on January 1, 2006, prescription drug coverage for these beneficiaries was
transferred from Medicaid to Medicare Part D. Despite CMS’s efforts to ensure a smooth
transition to Medicare Part D, some full-benefit dually eligible beneficiaries did not enroll in or
were not assigned to a Part D plan. As a result, some States paid for these beneficiaries’
Medicare Part D drugs during the transition period.

To reimburse States for drug costs and related administrative costs incurred during the transition
period, CMS implemented the “Reimbursement of State Costs for Provision of Part D Drugs”
Medicare demonstration project pursuant to section 402(a)(l)(A) of the Social Security
Amendments of 1967 (codified at 42 U.S.C. § 1395b-1(a)(1)(A) and expressly made applicable
to Part D in § 1860D-42(b)). On February 14, 2006, Maine submitted its “Section 402
Demonstration Application” (Medicare demonstration application) to CMS. By submitting its
Medicare demonstration application, Maine agreed to pay for full-benefit dually eligible and
low-income subsidy beneficiaries’ drug claims overseen by the Department of Health and
Human Services (the State agency). The State agency’s participation in the demonstration
project covered drug claims with dates of service from January 1 through March 31, 2006, and
related administrative costs from January 1 through September 1, 2006.

CMS reimbursed the State agency a total of $6,709,381 for Medicare demonstration project drug
costs. The State agency did not report this amount on its Medicaid Forms CMS-64.

OBJECTIVES

Our objectives were to determine whether the State agency (1) complied with certain provisions
of the Medicare demonstration application when claiming drug costs for full-benefit dually
eligible beneficiaries and (2) claimed drug costs to both the Medicaid program and the Medicare
demonstration project.

RESULTS OF REVIEW

The State agency complied with certain provisions of the Medicare demonstration application
when claiming drug costs for full-benefit dually eligible beneficiaries. For example, the State
agency ensured that claims were for covered Part D drugs and for drug costs incurred during the



                                                  i
demonstration project’s effective dates. In addition, the State agency did not claim drug costs to
the Medicaid program and the Medicare demonstration project. Accordingly, this report contains
no recommendations.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Part D Prescription Drug Benefit.........................................................1
              Full-Benefit Dually Eligible Beneficiaries ..........................................................1
              Medicare Part D Demonstration Project ..............................................................1
              Maine’s Participation in the Medicare Part D Demonstration Project ................2

          OBJECTIVES, SCOPE, AND METHODOLOGY.........................................................2
               Objectives ............................................................................................................2
               Scope....................................................................................................................2
               Methodology ........................................................................................................3

RESULTS OF REVIEW ...........................................................................................................4




                                                                    iii
                                              INTRODUCTION

BACKGROUND

Medicare Part D Prescription Drug Benefit

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA)
amended Title XVIII of the Social Security Act (the Act) by establishing Medicare Part D.
Medicare Part D provides optional prescription drug coverage for individuals who are entitled to
Medicare Part A or enrolled in Medicare Part B. The Centers for Medicare & Medicaid Services
(CMS), which administers Medicare, contracts with private prescription drug plans and Medicare
Advantage plans to offer prescription drug benefits to eligible individuals.

Full-Benefit Dually Eligible Beneficiaries

Full-benefit dually eligible beneficiaries are eligible for benefits under both Medicare and
Medicaid. Pursuant to Title I, section 103(c), of the MMA and upon the implementation of
Medicare Part D on January 1, 2006, prescription drug coverage for these beneficiaries was
transferred from Medicaid to Medicare Part D. CMS took numerous actions to ensure that full-
benefit dually eligible beneficiaries continued to receive medications during the transition to
Medicare Part D. For example, if a beneficiary did not choose a prescription drug plan by
December 31, 2005, CMS randomly assigned the beneficiary to a plan. In addition, to facilitate
enrollment of dually eligible beneficiaries at the point of sale, CMS implemented a new
eligibility inquiry process for pharmacies to verify Part D plan assignments and employed
contractors.

Despite CMS’s efforts to ensure a smooth transition to Medicare Part D, some full-benefit dually
eligible beneficiaries did not enroll in or were not assigned to a Part D plan. As a result, some
States paid for these beneficiaries’ Medicare Part D drugs during the transition period.

Medicare Part D Demonstration Project

To reimburse States for drug costs and related administrative costs incurred during the transition
period, CMS implemented the “Reimbursement of State Costs for Provision of Part D Drugs”
Medicare demonstration project pursuant to section 402(a)(l)(A) of the Social Security
Amendments of 1967 (codified at 42 U.S.C. § 1395b-1(a)(1)(A) and expressly made applicable
to Part D in § 1860D-42(b)). The demonstration project permitted Medicare to fully reimburse
States for full-benefit dually eligible beneficiaries’ Part D drugs to the extent that the costs were
not recoverable from a Medicare Part D plan. 1

To participate in the demonstration project and receive reimbursement for their incurred costs,
States were required to submit a signed “Section 402 Demonstration Application” (Medicare
demonstration application) to CMS. By submitting Medicare demonstration applications, States
agreed to (1) require pharmacies to bill the Part D plan before relying on State payment (i.e., the

1
 In addition, the demonstration project provided payments to States for low-income subsidy-entitled beneficiaries’
Part D drugs and for certain administrative costs.

                                                         1
State was the payer of last resort); (2) provide specific information to CMS on Part D drug
claims and administrative costs; (3) ensure that claims submitted were for covered Part D drugs;
(4) separate demonstration project claims from those payable under other programs; (5) submit
claims only for drug costs (not including beneficiary cost sharing) and administrative costs
incurred during the demonstration project’s effective dates; (6) report to CMS the number of
claims, beneficiaries, and expenditures on a timely basis; and (7) ensure that Medicare funding
was not used as State Medicaid matching funds (State Medicaid Director Letter No. 06-001
(Feb. 2, 2006); CMS, Section 402 Demonstration Application Template: Reimbursement of State
Costs for Provision of Part D Drugs).

CMS required States to submit demonstration project claims directly to its contractor, Public
Consulting Group, which determined whether the claims were eligible for reimbursement. CMS
then reimbursed States for eligible claims.

Maine’s Participation in the Medicare Part D Demonstration Project

On February 14, 2006, the Maine Department of Health and Human Services (the State agency)
submitted its Medicare demonstration application to CMS. The State agency agreed to pay for
full-benefit dually eligible beneficiaries’ drug claims and for low-income subsidy beneficiaries
entitled to assistance from State Pharmaceutical Assistance Programs (SPAP). 2 The State
agency’s participation in the demonstration project covered drug claims with dates of service
from January 1 through March 31, 2006, and related administrative costs from January 1 through
September 1, 2006.

The State agency processed demonstration project drug claims for full-benefit dually eligible and
low-income subsidy beneficiaries through its Medicaid point-of-sale system. The State agency
submitted drug claims to the Public Consulting Group and subsequently received reimbursement
from CMS totaling $6,709,381. The State agency also was reimbursed $19,503 for
administrative costs related to the Medicare demonstration project.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency (1) complied with certain provisions
of the Medicare demonstration application when claiming drug costs for full-benefit dually
eligible beneficiaries and (2) claimed drug costs to both the Medicaid program and the Medicare
demonstration project.

Scope

The audit covered the State agency’s 128,651 drug claims for full-benefit dually eligible
beneficiaries submitted under the Medicare Part D demonstration project from January 1 through

2
 The Maine SPAP included residents who were citizens or lawfully admitted to the U.S., 62 or over or age 19
through 61 and meet the disability criteria for Supplemental Security Income under Title XVI of the Social Security
Act, and the gross monthly income must be equal to or less than 185 percent of the Federal poverty level.

                                                         2
March 31, 2006. We did not review the State agency’s drug claims for low-income subsidy
beneficiaries, nor did we determine whether pharmacies attempted to bill beneficiaries’ Part D
plans before relying on State payment.

The audit also covered the State agency’s Medicare demonstration project drug costs for the
period January 1 through March 31, 2006, claimed on the Forms CMS-64. CMS reimbursed the
State agency a total of $6,709,381 for these Medicare demonstration project drug costs. We
reviewed only the State agency’s claims for drug costs. We did not review whether the State
agency complied with demonstration project requirements for administrative costs. We reviewed
only those internal controls necessary to achieve our objectives.

We performed fieldwork at the State agency’s offices in Augusta, Maine, from June through
December 2009.

Methodology

To accomplish our objectives, we:

        reviewed applicable laws, regulations, and guidance;

        interviewed State agency officials to (1) obtain an understanding of their process for
         identifying and submitting full-benefit dually eligible beneficiary claims under the
         demonstration project and (2) determine whether they separated demonstration project
         claims from those payable under other programs;

        obtained from CMS a database of 128,651 drug claims for full-benefit dually eligible
         beneficiaries paid to the State agency under the demonstration project for the period
         January 1 through March 31, 2006;

        reconciled the total dollar amount of drug claims that the State agency reported on its
         Forms CMS-64 to its computerized claim-processing system for calendar year 2006;

        reviewed a judgmentally selected sample of 30 drug claims paid to the State agency
         under the demonstration project to determine whether (1) the dates of service were
         during the demonstration project’s effective dates, (2) the drugs were covered by
         Medicare Part D, and (3) any cost-sharing amounts (copayments) on the part of the
         beneficiary were not included in the claim;

        reviewed a judgmentally selected sample of 60 beneficiaries whose drug claims were
         paid under the demonstration project to determine whether these beneficiaries were
         dually eligible; and

        reviewed guidance issued by the State agency to the pharmacies, including guidance
         requiring them to submit Part D-eligible drug claims to Part D plans before billing the
         State agency.


                                                3
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                   RESULTS OF REVIEW

The State agency complied with certain provisions of the Medicare demonstration application
when claiming drug costs for full-benefit dually eligible beneficiaries. For instance, the State
agency ensured that claims were for covered Part D drugs and for drug costs incurred during the
demonstration project’s effective dates. In addition, the State agency did not claim drug costs to
the Medicaid program and the Medicare demonstration project. Accordingly, this report contains
no recommendations.




                                                4
